1
No.

20-6119

In The
SUPREME COURT OF THE UNITED STATES

In re. Nira Woods, Dr. - Petitioner,
VS.
The Superior Court of California - Respondent(s)

PROOF OF SERVICE
I, Dr. Nira Schwartz, do swear or declare that on this date, of 11/30/2020
as required by Supreme Court Rule 29 I have served the enclosed:
"Petitioner (“Woods”) Motion for Leave to file 2nd Supplemental Brief under Hon. US
Supreme Court RULE 15.8"
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Please see attached two pages with the list of 20 defendants and their addresses as was
used with the Summons of the Complaint in the Superior Court case No.: 20TRCV00564;
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 11/30/2020

6Qonkhr
Petitioner Woods

